OIG Investigative Reports, School President Sentenced in Department of Education Loan Fraud Scheme.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Press Release
August 2, 2007
SCHOOL PRESIDENT SENTENCED IN DEPARTMENT OF EDUCATION LOAN FRAUD SCHEME
FOR IMMEDIATE RELEASE
August 2, 2007
Public Affairs Office:
Alicia Valle
Special Counsel to the U.S. Attorney
(305) 961-9153
Yovanny Lopez
Public Affairs Specialist
(305) 961-9316
Public Affairs Fax
(305) 530-7055
R. Alexander Acosta, United States Attorney for the Southern District of Florida, and Lester Fernandez, Special Agent in Charge, United States Department of Education, Office of Inspector General, Atlanta Region, announced today that Eric B. Donaldson, 45, was sentenced to fifteen (15) months' imprisonment today by the United States District Court Judge Kenneth A. Marra in West Palm Beach, Florida. Donaldson had previously pled guilty to education loan fraud, in violation of Title 20, United States Code, Section 1097. In addition to the term of imprisonment, Donaldson was also ordered to pay restitution of $393, 546.76, and to serve a term of three (3) years on supervised release following imprisonment
As set forth in the Information, and as Donaldson admitted when he pled guilty and at sentencing, Donaldson was the President and owner of Summit Institute, LLC, Summit Education, LLC, and Summit Advertising, LLC ("Summit") from approximately 2000 through 2004. Summit was a for-profit school offering post-secondary education primarily designed to prepare students for technical careers in the fields of insurance, travel, massage therapy and medicine. The school operated in West Palm Beach, Florida. Summit received funds on behalf of its students through the United States Department of Education Title IV loan and grant programs. Under the programs, in the event a student withdrew, dropped out, or otherwise failed to complete enrollment in a particular course for which a loan had been made, Summit was required to refund or credit that loan. Summit, at the direction of Donaldson, failed to make approximately $393,546.76 in refunds or credits on behalf of approximately 246 students. Donaldson admitted that he knowingly and willfully failed to refund these federal student loans and credit balances through Summit.
United States Attorney Acosta stated, "These loans were meant to benefit students who otherwise could not afford an education. By failing to return these funds, the defendant prevented these limited funds from being available for use by other qualified students."
"I am proud of the contribution of OIG Special Agents in holding Eric Donaldson accountable for his fraudulent activity," said John P. Higgins, Jr., Inspector General of the U.S. Department of Education. "The misappropriation of federal education dollars by Mr. Donaldson came at the expense of the students who attended the Summit Institute. That is unacceptable. My office will continue to aggressively pursue those who seek to defraud federal education programs at the expense of our nation's students."
Mr. Acosta commends the investigative efforts of the United States Department of Education, Office of the Inspector General. This case was being handled by Assistant United States Attorney Carolyn Bell.
A copy of this press release may be found on the website of the United States Attorney's Office for the Southern District of Florida at http://www.usdoj.gov/usao/fls. Related court documents and information may be found on the website of the District Court for the Southern District of Florida at http://www.flsd.uscourts.gov or on https://ecf.flsd.uscourts.gov/.
PLEASE NOTE: The United States Attorney's Office does not respond to non-technical inquiries made to this website. If you wish to make a request for information, you may contact our office at 305-961-9001, or you may send a written inquiry to the United States Attorney's Office, Southern District of Florida, 99 NE 4th Street, Miami, Fl. 33132.
Top
Printable view
Share this page
Last Modified: 08/21/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov